                                                                            Legal Services Corporation
                                                                            Office of Inspector General




lnspcctar General
Jeffrey E. Schanz




        December 11,2008


        Andrew Scherer
        Executive Director
        Legal Services NYC
        360 Broadway, 6th Floor
        New York, NY 10013

        Dear Mr. Scherer:

        Attached is the final report on the results of the audit on Selected Internal
        Controls at Legal Services NYC. The Office of Inspector General (OIG) reviewed
        your response with regard to the findings and recommendations in the draft
        report and believe the actions taken or planned will address both
        recommendations in the report. The OIG considers Recommendation 1 closed.
        However, since management's actions have not yet been completed to
        implement Recommendation 2, this recommendation remains open. Because
        you have already provided this office with your planned actions, you do not need
        to submit a separate corrective action plan. Please notify this office in writing
        when you have included the written methodology for allocating indirect costs in
        your accounting manual so that the final recommendation can be closed.

        Thank you and your staff for the cooperation and assistance provided.

        Sincerely,

                     y,
        Je r        . Schanz
        inspector General

        Enclosure

        cc:    Leqal Services Cor~oration
               Helaine Barnett, President
                                                                           3333 K Street, NW 3rd Floor
                                                                           Washington, DC 20007-3522
                                                                           Phone 202.295.1500 Fax 202.337.6616
                                                                           www.oig.lsc.gov
 LEGAL SERVICES CORPORATION
 OFFICE OF INSPECTOR GENERAL




REPORT ON SELECTED INTERNAL
         CONTROLS




LEGAL SERVICES NYC
         RNO 233100




     Report No. A U09-07

         December 2008
         www.oig.lsc.gov
                                     TABLE OF CONTENTS



INTRODUCTION ........................................................................................I

BACKGROUND ..........................................................................................
                                                                                                I

OBJECTIVE ..........................................................................................:....I

SCOPE AND METHODOLOGY .................................................................
                                                                                    I

OVERALL EVALUATION ...........................................................................         2

RESULTS OF AUDIT .................................................................................
                                                                                                3

   FOLLOW-UP ON GAO CONCERNS .............................................
                                                                        3

       Alcohol Purchases and Late Fees .....................................................            3
       Lobbying Fees ...................................................................................3

  DISBURSEMENTS AND SUPPORTING DOCUMENTATION ................4

       Late Fees ..........................................................................................4
        Recommendation 1 ........................................................................         4
        Grantee Management Comment ....................................................                   4

  INTERNAL CONTROL REVIEW OF SELECTED AREAS ......................5

       Cost Allocation Process .....................................................................
                                                                                                 5
        Recommendation 2 .......................................................................-6
        Grantee Management Comment ....................................................          6

OFFICE OF INSPECTOR GENERAL EVALUATION OF
GRANTEE MANAGEMENT COMMENTS..................................................
                                                                           6

GRANTEE MANAGEMENT COMMENTS................................APPENDIX i
In November, 2007, management of the Legal Services Corporation (LSC)
referred for follow-up to the Office of Inspector General (OIG) instances of
internal control weakness at certain LSC grantees identified in the Government
Accountability Office (GAO) Draft Report entitled, Legal Services Corporation -
Improved Internal Controls Needed in Grants Management and Oversight or
identified in a November 13, 2007 meeting between GAO and LSC staff. The
final GAO report (GAO-08-37) was published on December 28,2007.

LSC management requested that the OIG assess whether the issues specifically
identified by GAO had been corrected at each of the grantees referred to the OIG
by management.


                                BACKGROUND

GAO assessed whether LSC's internal controls over grants management and
oversight processes provide reasonable assurance that grant funds are used for
their intended purposes. GAO analyzed records and interviewed LSC officials to
obtain an understanding of LSC's internal control framework, including the
monitoring and oversight of grantees, and performed limited reviews of internal
controls and compliance at 14 grantees. GAO found control weaknesses at 9 of
the 14 grantee sites it visited. These weaknesses included using LSC grant
funds for expenditures with insufficient supporting documentation and for unusual
contractor arrangements, alcohol purchases, employee interest-free loans,
lobbying fees, late fees, and earnest money.


                                  OBJECTIVE

Our overall objective was to determine whether the conditions cited in the GAO
report were corrected and controls were put in place by Legal Services NYC
(grantee) to detect similar situations and prevent them from recurring. In
addition, while on site, we evaluated other selected financial and administrative
areas relating to the GAO findings and tested the related controls to ensure that
expenditures were adequately supported and allowed under the LSC Act and
regulations.


                        SCOPE AND METHODOLOGY

To accomplish our objective we reviewed controls over the client intake process;
employee benefits and reimbursements; disbursements; and internal
management reportinglbudgeting. To obtain an understanding of the internal
controls over these areas, we reviewed grantee policies and procedures,
including any manuals, guidelines, memoranda, and directives setting forth
current grantee practices. We interviewed grantee officials to obtain an
understanding of the internal control framework and interviewed grantee
management and staff as to their knowledge and understanding of the processes
in place.

We conducted fieldwork at the grantee's central administrative ofice located in
Manhattan, New York City. To test for the appropriateness of expenditures and
the existence of adequate supporting documentation, we reviewed
disbursements from a judgmentally selected sample of employee and vendor
files. To assess the appropriateness of grantee expenditures, we reviewed
invoices, vendor lists, and general ledger details. The appropriateness of
grantee expenditures was evaluated on the basis of the grant agreements,
applicable laws and regulations, and LSC policy guidance. This review was
limited in scope and was not sufficient for expressing an opinion on the entire
system of grantee internal controls or compliance.

The on-site fieldwork was conducted from May 5, 2008 through May 9, 2008.
Documents reviewed pertained to the period January 1, 2007 through April 30,
2008. Our work was conducted at the grantee's site and at LSC headquarters in
Washington, DC.

We conducted this performance audit in accordance with Generally Accepted
Government Auditing Standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.


                           OVERALL EVALUATION

Legal Services NYC (grantee) management had taken appropriate steps to
address the issues raised by GAO by implementing controls over the future use
of grant funds for alcohol purchases and lobbying fees. However, the grantee
still needs to take further steps to preclude the incurrence of late fees.

Grantee disbursements tested were adequately supported, allowable, and
properly allocated to LSC except for unallowable late fees and related finance
charges of $2,046.04. The disbursements tested disclosed no direct payments
from LSC funds for alcohol purchases or lobbying fees. Internal controls over the
client intake process in Manhattan, employee benefits and reimbursements,
disbursements and internal management reportinglbudgeting were operating in a
manner expected to ensure compliance with the LSC Act and LSC regulations.

In addition, we did identify one area where internal controls could be
strengthened. The grantee's cost allocation process needs to be in writing,
included in its Accounting Manual and its application documented.
                               RESULTS OF AUDIT

FOLLOW-UP ON GAO CONCERNS

GAO identified internal control weaknesses at this grantee dealing with the use of
grant funds for alcohol purchases, late fees and lobbying fees.

       Alcohol Purchases and Late Fees

GAO reported that among the control weaknesses found were grantees using
LSC grant funds for alcohol purchases and late fees.        Our testing of
disbursements made by the grantee did not identify any purchases of alcohol
using LSC funds.        The grantee's purchasing and employee expense
reimbursement policies prohibit alcohol purchases. However, our testing did
reveal payments of late fees and related finance charges in the amount of
$2,046.04.     As discussed below under Disbursements and Supporting
Documentation, we concluded that the grantee still needs to take steps to
preclude the incurrence of late fees.

       Lobbying Fees

GAO identified this grantee as using LSC funds to pay for lobbyist registration
fees. Aside from the payments previously identified by GAO, our testing of
disbursements did not disclose any specific payments using LSC funds made by
the grantee for lobbying fees.

In addition, as a result of GAO concerns, we inquired into the grantee's
adherence to the specific recordkeeping requirement for legislative activities set
forth in 45 C.F.R. Part 1612. As required, the grantee submitted semi-annual
reports to LSC describing their legislative activities with non-LSC funds
conducted pursuant to 45 C.F.R. $1612.6. The grantee did not engage
extensively in these legislative activities during the period reviewed.

Section 1612.1 0(b) of LSC's regulations provides that grantees "shall maintain
separate records documenting the expenditure of non-LSC funds for legislative
and rulemaking activities permitted by [45 C.F.R.] $1612.6." The grantee
requires its staff members participating in 45 C.F.R. 31612.6 activities to maintain
separate records of their time spent on these activities. The project directors of
the constituent corporation branch offices ensure that these staff member
salaries are paid at least in part with non-LSC funds.               However, the
recordkeeping relied on allocations rather than on direct charges of staff
member's time. Although this system may result in some level of documentation,
it does not ensure that the time spent by staff members on the specific non-LSC
funded activity is not charged to LSC funds.
Subsequent to our on-site fieldwork, the grantee's Chief Financial Officer (CFO)
provided documentation showing that the grantee modified its timekeeping
system in order to track 45 C.F.R. 51612.6 activities specifically within the
timekeeping system. Since we believe this policy adequately addresses our
concern, no recommendation is necessary and we consider the issue closed.

DISBURSEMENTS AND SUPPORTING DOCUMENTATION

We reviewed a sample of grantee disbursements covering the period January 1,
2007 through March 31, 2008. Our sample was judgmentally selected and
included 148 transactions totaling $191,267. We concluded that, except for the
following, the disbursements were adequately supported, allowable, and properly
allocated to LSC.

      Late Fees

Late fees are not recognized as ordinary and necessary expenditures for the
performance of LSC grants. A good financial management system should
prevent the incurrence of unnecessary and unreasonable expenses such as
penalties or late fees. Under LSC regulation 45 C.F.R. s1630.3 costs may be
questioned if they are not reasonable and necessary for the performance of the
grant. "A cost is reasonable if, in its nature or amount, it does not exceed that
which would be incurred by a prudent person under the same or similar
circumstances...." 45 C.F.R. 51630.3(b).

Our sample of disbursements found payments for late fees and related finance
charges of $1,879.96 in calendar year 2007 and $166.08 through April of
calendar year 2008. These late fees and related finance charges totaled
$2,046.04.

The grantee explained that the late fees were incurred because much of the
invoice documentation comes to the Finance Office from the grantee's
constituent corporations. Delays in receipt and processing at those offices can
delay processing and payment by the Finance Office which may result in late
fees. The grantee stated that it has been working at reducing late fees by
speeding up processing at the constituent corporations.

We consider the late fees and related finance charges of $2,046.04 to be
questioned costs and will refer these to LSC management for its review in
accordance with LSC regulation 45 C.F.R. 51630.7.

      Recommendation 1 - The Executive Director should take further action to
improve the processing of invoices so as to not incur future late fees.

      Grantee Management Comment The Chief Financial Officer stated:
      "Legal Services NYC has taken measures since the lStquarter of 2008 to
      eliminate late fees. Those measures include:
                 Reviewed and isolated vendors who charged late fees to the
                 organization during the last two years. Once identified, routine
                 invoices (primarily equipment leases) were rerouted directly to
                 central, for approval and payment.

                 Identified which constituent offices repeatedly submitted
                 invoices late, and communicated findings to the offices'
                 Directors of Administration along with an offer of additional
                 assistance.

                 Alerted Accounts Payable to be more cognizant and more
                 proactive in soliciting Requests for Payment from the field for
                 routine expenses that have been historically time sensitive. i.e.
                 credit card payments.

      We believe the above measures should eliminate the incurrence of late
      fees."



INTERNAL CONTROL REVIEW OF SELECTED AREAS

Our review of the internal controls over the client intake process (Manhattan),
employee benefits and reimbursements, disbursements, and internal
management reportinglbudgeting revealed that the controls are operating in a
manner expected to ensure compliance with the LSC Act and LSC regulations.
We did note one area where internal controls could be strengthened.

      Cost Allocation Process

The grantee's Accounting Manual does not describe the specific procedures to
be followed by the grantee in complying with the cost allocation section of the
Fundamental Criteria of an Accounting and Financial Reporting System
(Fundamental Criteria) contained in the Accounting Manual for LSC Recipients.
The grantee incurred costs for the central office and the legal support unit.
These costs were allocated to grantee funding sources, including LSC, through
the use of pre-determined rates.        However, the grantee did not have
documentation readily available to demonstrate how the rates were developed or
explain the rationale for the rates.

According to the grantee, the methodology for allocating indirect costs is based
on rates that were arrived at several years ago and have not been substantively
revised. The grantee explained that the indirect cost allocation methodology
used by the grantee replicates an acceptable methodology that complies with 45
C.F.R §1630.3(f), the allocation of indirect costs (allocating indirect costs as a
percentage of revenue).
However, without a written methodology for allocating indirect costs included in
the Accounting Manual together with supporting documentation detailing
application of the methodology, the grantee cannot be assured that its indirect
costs are being allocated to LSC in a fair, consistent, and equitable manner.

       Recommendation 2 - The Executive Director should include a written
methodology for allocating indirect costs in the grantee's Accounting Manual that
complies with 45 C.F.R Part 1630 and the Accounting Manual for LSC
Recipients. The grantee should apply and document this methodology in
allocating its indirect costs.

      Grantee Management Comment The Chief Financial Officer stated:
      "By the end of the second quarter of 2009 Legal Services NYC will include
      a written methodology for allocating indirect costs in its accounting manual
      that complies as needed. The development of the written methodology
      will resolve the following:
                 ldentification and documentation of the organizations total
                 indirect costs.
                 ldentification and documentation of our distribution bases
                 including, e.g., salaries andlor current poor person census data,
                 etc.
                 Method(s) for formulating budgets for all funding sources that
                 will fairly, consistently and equitably allocate indirect costs
                 among funding sources with disparate requirements and
                 parameters with respect to direct and indirect cost allocation."



      OFFICE OF INSPECTOR GENERAL EVALUATION OF GRANTEE
                     MANAGEMENT COMMENTS

Management actions taken and planned are responsive to the findings and
recommendations contained in this report. Since management actions to
implement Recommendation I have been completed, this recommendation is
closed.

While management's comments and planned actions are responsive to
Recommendation 2, those actions are not yet complete. Therefore, this
recommendation remains open. Because you have already provided your
planned actions, you do not need to submit a separate corrective action plan.
Please notify this office in writing when you have included the written
methodology for allocating indirect costs in your accounting manual so the
recommendation can be closed.
                                                                                               APPENDIX I




November 6,2008

Mr. Anthony M. Ramirez
Office of the Inspector General
Legal Services Corporation
3333 K Street, NW, 3d Floor
Washington, D.C. 20007-3522

Dear Mr. Ramirez:

Per the October 2 letter from Mr. Ronald Merryman to Andrew Scherer, enclosed please find Legal
Service NYC Grantee Management Comments regarding the recommendations indicated in the Report
on Selected Internal Controls.

Thank you for bringing the identified matters to our attention. If there are any issues regarding the
attached, please let me know.

Regards,

& d U
John Anthony Butler
Chief Financial Officer

Enclosure

C: Andrew Scherer




                                                Legal Sewices NYC
                                     350 Broadway, 6mFloor, New York, NY 10013
                          Phone: 646-442-3600 Fax: 212-966-9571 www.LegalServicesNYC.org
                                    Andrew Scherer, Executive Director 8 President
                                              Fern Schalr, Board Chair
Recommendation 1 - The Executive Director should takefurther action to improve the processing of
invoices so as to not incurfuture latefees.

       Grantee Management Comment
       Legal Services NYC has taken measures since the 1'' quarter of 2008 to eliminate late fees.
       Those measures include:
              Reviewed and isolated vendors who charged late fees to the organization during the last
              two years. Once identified, routine invoices (primarily equipment leases) were rerouted
              directly to central, for approval and payment.

              Identified which constituent offices repeatedly submitted invoices late, and
              communicated findings to the offices' Directors of Administration along with an offer of
              additional assistance.

              Alerted Accounts Payable to be more cognizant and more proactive in soliciting Requests
              for Payment from the field for routine expenses that have been historically time sensitive.
              i.e. credit card payments

       We believe the above measures should eliminate the incurrence of late fees.

Recommendation 2 - The Executive Director should include a written methodologyfor allocating
indirect costs in the grantees Accounting Manual that complies with 45 C.F.R.Part 1630 and the
Accounting Manual for LSC Recipients. The grantee should apply and document this methodology in
allocating its indirect costs.

       Grantee Management Comment
       By the end of the second quarter of 2009 Legal Services NYC will include a written
       methodology for allocating indirect costs in its accounting manual that complies as needed. The
       development of the written methodology will resolve the following:
              Identification and documentation of the organizations total indirect costs.
              Identification and documentation of our distribution bases including, e.g., salaries and/or
              current poor person census data, etc.
              Method(s) for formulating budgets for all funding sources that will fairly, consistently
              and equitably allocate indirect costs among funding sources with disparate requirements
              and parameters with respect to direct and indirect cost allocation.
